                                  CLOSEOUT OF M-91080032


By letter of July 9, 1991, the Office of Inspector General (OIG)
 received an allegation of misconduct from
-(the         complainant) against the National Science Foundation
 (NSF) (the subject). The allegation was that there have been
(ILstematic substantive violations of the NSF Act of 1950 by peer
 review panels in                  )"and essentially these alleged
violations have contributed to the economic, political, and social
demise of the United States. In both telephone conversations (of
June 3 and August 1, 1991) and a letter dated September 11, 1991,
 the Assistant Inspector General for Oversight (AIGO) explained the




                                                              -
 jurisdictional limitations of NSF misconduct regulations to the
 complainant and requested same to provide specific instances of
misconduct under NSF' s definition of misconduct beyond the general
allegation that had been made. The complainant was advised that in
 the absence such information OIG would close this matter.       In
 response to the request for specific information, the complainant
 submitted by letters dated October 19 and November 7, 1991, two
versions of -a document (both in excess of 100 pages) entitled
                -. 4
                            This document did not contain factual .
 evidence of misconduct that "has occurred in proposing, carrying
 out, or reporting results from activities funded by NSF."      The
AIGO concluded that the complainant's allegation was an honest
disagreement in scholarly approach and does rise to the level of
misconduct. Thus, this matter is now considered closed.




James J. Zwolenik, Ph.D.
Assistant Inspector General
  for Oversight
Concurrence:


  4&3,L
~ontcjomer~      K. Fisher
~ s s i s t a n t ~ ~ o u n sto
                              e lthe I.G.



cc:   I n s p e c t o r General
